No. ____________
IN THE

BRIAN KEITH FIGGE
Petitioner,
v.
SCOTT FRAUENHEIM, WARDEN,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

CUAUHTEMOC ORTEGA
Federal Public Defender
MARK R. DROZDOWSKI*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
*Counsel of Record

QUESTION PRESENTED
Does a trial court violate a criminal defendant’s Sixth Amendment

right to trial by jury when it dismisses a defense holdout juror on the third
day of deliberations for “failing to deliberate,” even though other jurors report

that the juror had been participating in the deliberations by discussing the
case, discussing his point of view, and listening to the other jurors?

i

PARTIES AND LIST OF PRIOR PROCEEDINGS

The parties to this proceeding are Petitioner Brian Keith Figge and
Respondent Scott Frauenheim, Warden. The California Attorney General
represents Respondent.

On December 14, 2012, Figge was convicted by jury in the Riverside
County Superior Court in People v. Brian Keith Figge, case no. SWF1100774,

Judge Albert J. Wojcik, presiding, of several counts of child sexual assault.
Petitioner’s Appendix filed concurrently herewith (“Pet. App.”) 33-34, 44;
reporter’s transcript of trial (“RT”), docket 20, lodgment 2, at 582-588.1 On

May 10, 2013, Judge Wojcik sentenced Figge to a total prison term of 60

years to life and entered judgment against him. Clerk’s transcript of trial
(“CT”), docket 20, lodgment 1, at 438-439; Pet. App. 44.

The California Court of Appeal, per the Honorable Judith L. Haller,

Judith McConnell, Presiding Judge, and James A. McIntyre, affirmed the
judgment on appeal in an unpublished opinion filed on April 6, 2015 in People
v. Brian Keith Figge, case no. D066962. People v. Figge, 2015 WL 1573874

1 Unless otherwise noted, all references to “docket” are to the district
court docket in Figge’s habeas corpus case. The magistrate judge granted the
State’s request to file the state court record under seal on the ground that the
transcripts, briefs, and California Court of Appeal opinion had been filed
under seal in state court because “they contained] information about child
molest victims.” See Pet. App. 101-109; see especially Pet. App. 105-106.

ii

(Apr. 6, 2015).2 The California Supreme Court denied Figge’s petition for
review on July 22, 2015 in case no. S226535. Pet. App. 45.

Figge filed several habeas corpus petitions in the California Court of
Appeal. Id. The court denied them on August 12, 2016 (case no. D070761);

July 13, 2017 (case no. D072398); and July 26, 2017 (case no. D072500). On

November 9, 2016, the California Supreme Court denied Figge’s habeas
petition in case no. S237141. Id. On October 11, 2017, the California

Supreme Court denied Figge’s habeas petition in case no. S243707.
On October 4, 2016, Figge filed a federal habeas corpus petition in
Brian Figge v. Scott Frauenheim, Warden, C.D. Cal. case no. CV 16-07408-

DSF-KES. Pet. App. 46. He filed the operative second amended petition on
December 2, 2016. Id.; docket 10. On March 30, 2018, United States
Magistrate Judge Karen E. Scott filed a report recommending that Figge’s

petition be denied and the action dismissed with prejudice.3 On June 6, 2018,
United States District Judge Dale S. Fischer accepted the report, dismissed

2 Figge cites the publicly-filed version of the opinion available online.
This version redacts information regarding the witnesses who testified at
trial that Petitioner sexually assaulted them. Id.
3 The magistrate judge publicly filed a version of the report redacting
information pertaining to the witnesses who testified that Petitioner sexually
assaulted them. Pet. App. 41. Figge has filed this redacted version of the
report in his Appendix. Pet. App. 41-100. The complete report, filed under
seal, is contained in district court docket 44.

iii

the petition with prejudice, and entered judgment against Figge. Pet. App.
39-40. Judge Fischer granted a certificate of appealability on the issue raised

in this petition. Docket 48.

On July 24, 2020, without holding oral argument, the Ninth Circuit,
per the Honorable Kim McLane Wardlaw, Deborah L. Cook, United States
Circuit Judge for the United States Court of Appeals for the Sixth Circuit,
sitting by designation, and Danielle J. Hunsaker, affirmed the judgment in

an unpublished memorandum opinion in Figge v. Frauenheim, case no. 1855855. Pet. App. 33-38.

iv

TABLE OF CONTENTS
PAGE(S)
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

I.

Evidence Presented at Trial

4

II.

Jury Deliberations

5

III.

State Direct Appeal

7

IV.

Federal Habeas Action

8

REASONS FOR GRANTING THE WRIT
V.

Standard of Review and AEDPA Standards

VI.

The State Court Decision Is Based on an Unreasonable
Determination of the Facts and Therefore 28 U.S.C. § 2254(d)
Does Not Bar Relief12

8
8

A.

Applicable federal law

12

B,

The California appellate court ruling

13

C.

The California appellate court ignored key
contradictory testimony in making its determination15

a)

Some of the statements made by the four
“credible” jurors contradicted the California
appellate court’s key findings, but the court failed
to explain why it ignored this important
16
inconsistent testimony

b)

The four complaining jurors contradicted each
other and themselves in describing Juror Il’s
behavior in the jury room, but the California
v

TABLE OF CONTENTS

PAGE(S)
appellate court did not explain why it disregarded
these significant inconsistencies................................ 21

III.

c)

The appellate court failed to address obvious
confusion by the “credible” jurors; the
complaining jurors believed Juror 11 was “failing
to deliberate” because he had refused to change
his mind to the majority view........................... 24

d)

The process employed by the state court was
defective because the court only briefly spoke with
the holdout juror, no inquiry was made of the
non-complaining jurors, and no effort was made to
preserve the originally empaneled jury.......... 27

On De Novo Review, the Court Should Grant Relief

30

A.

Figge’s Sixth Amendment rights were violated

30

B.

The Sixth Amendment violation prejudiced Figge

30

CONCLUSION

31

INDEX TO APPENDIX

32

APPENDIX

33

vi

TABLE OF AUTHORITIES

PAGE(S)
FEDERAL CASES
Abdul-Kabir v. Quarterman,
550 U.S. 233 (2007)

10

Bell v. Uribe,
748 F.3d 857 (9th Cir. 2014)

13, 21, 28, 29

Brewer v. Quarterman,
550 U.S. 286 (2007)

10

Brumfield v. Cain,
135 S. Ct. 2269 (2015)

11

Cudjo v. Ayers,
698 F.3d 752 (9th Cir. 2012)

11

Curiel v. Miller,
830 F.3d 864 (9th Cir. 2016) (en banc)

Frank v. Lizarraga,
721 Fed. Appx. 719 (Mem.) (9th Cir. May 2, 2018)

Frantz v. Hazey,
533 F.3d 724 (9th Cir. 2008) (en banc)

8, 9
12, 21, 27, 30
9, 10, 12, 30

Irvin v. Dowd,
366 U.S. 717 (1961)

12

Johnson v. Williams,
568 U.S. 289 (2013)

9, 10, 13

Lockyer v. Andrade,
538 U.S. 63 (2003)

10

Mann v. Ryan,
828 F.3d 1143 (9th Cir. 2016) (en banc)
Maxwell v. Roe,
628 F.3d 486 (9th Cir. 2010)

8
12

vii

!

TABLE OF AUTHORITIES
PAGE(S)
Mayfield v. Woodford,
270 F.3d 915 (9th Cir. 2001) (en banc)

Merced v. McGrath,
426 F.3d 1076 (9th Cir. 2005)

8
12

Milke v. Ryan,
711 F.3d 998

24, 27, 28, 29

Miller v. Stagner,
757 F.2d 988 (9th Cir. 1985)

21

Morgan v. Illinois,
504 U.S. 719 (1992)

12

Panetti v. Quarterman,
551 U.S. 930 (2007)

11

Perez v. Mitchell,
119 F.3d 1422 (9th Cir. 1997)

passim

Sanders v. LaMarque,
357 F.3d 943 (9th Cir. 2004)

30

Silva v. Woodford,
279 F.3d 825 (9th Cir. 2002)

8

Taylor v. Maddox,
366 F.3d 992 (9th Cir. 2004)

passim

United States v. Brown,
823 F.2d 591 (D.C. Cir. 1987)

21

Wainwright v. Witt,
469 U.S. 412 (1985)

12, 27, 30

Wiggins v. Smith,
539 U.S. 510 (2003)

11

viii

TABLE OF AUTHORITIES

PAGE(S)
Williams v. Johnson,
840 F.3d 1006 (9th Cir. 2016)

21

Wilson v. Sellers,
138 S. Ct. 1188 (2018)

9, 10

Woodford v. Garceau,
538 U.S. 202 (2003)

9

STATE CASES

People v. Barber,
102 Cal. App. 4th 145 (2002)

28

People v. Bowers,
87 Cal. App. 4th 722 (2001)

25

People v. Bradford,
15 Cal. 4th 1229 (1997)

20

People v. Cleveland,
25 Cal. 4th 466 (2001)

passim

People v. Engelman,
28 Cal. 4th 436 (2002)

25

People v. Thomas,
26 Cal. App. 4th 1328 (1994)

21

FEDERAL CONSTITUTION AND STATUTES
28 U.S.C. § 1254

2

28 U.S.C. § 1291

2

28 U.S.C. § 2241

2

28 U.S.C. § 2253

2
12, 13

U.S. Const, amend. XIV

ix

TABLE OF AUTHORITIES
PAGE(S)
U.S. Const, amend. VI

passim

28 U.S.C. § 2254

passim

STATE STATUTES
13

Cal. Penal Code § 1089

x

PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Brian Keith Figge petitions for a writ of certiorari to review the

judgment of the Ninth Circuit Court of Appeals affirming the judgment

against him in his habeas corpus action.
OPINIONS BELOW

The Ninth Circuit’s opinion affirming the judgment against Figge is
unreported. Pet. App. 33-38. The district court’s judgment and its order

accepting the magistrate judge’s report and recommendation and dismissing

the habeas action against Figge with prejudice are unreported. Pet. App. 3940.

The opinion by the California Court of Appeal affirming Figge’s
judgment on appeal is unreported. Pet. App. 45; Figge, 2015 WL 1573874.
The order by the California Supreme Court denying Infante’s petition for
review is unreported. Pet. App. 45.

JURISDICTION

The Ninth Circuit’s judgment affirming the judgment against Figge
was filed and entered on July 24, 2020. Pet. App. 33; Ninth Circuit docket

1

61. The district court had jurisdiction under 28 U.S.C. §§ 2241 and 2254.

The Ninth Circuit had jurisdiction pursuant to 28 U.S.C. §§ 1291 and 2253.
This Court has jurisdiction under 28 U.S.C. § 1254(1). This petition is timely
under Supreme Court Rule 13.1 and the Court’s order of March 19, 2020

extending the filing deadline for certiorari petitions by another 60 days
because of Covid-19.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment to the U.S. Constitution
“In all criminal prosecutions, the accused shall enjoy the right to a

speedy and public trial, by an impartial jury of the state and district wherein

the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of

the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the

assistance of counsel for his defense.”

28 U.S.C. § 2254(d)
“An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with

respect to any claim that was adjudicated on the merits in State court

proceedings unless the adjudication of the claim -

2

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of clearly established Federal law, as determined by

the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court

proceeding.”
28 U.S.C. § 2254(e)

“(1 ) In a proceeding instituted by an application for a writ of habeas

corpus by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to

be correct. The applicant shall have the burden of rebutting the presumption
of correctness by clear and convincing evidence.
(4) If the applicant has failed to develop the factual basis of a claim in

State court proceedings, the court shall not hold an evidentiary hearing on
the claim unless the applicant shows that-(A) the claim relies on-(1) a new rule of constitutional law, made retroactive to
case5 on collateral review by the Supreme Court, that was

previously unavailable; or

(11) a factual predicate that could not have been previously
discovered through the exercise of due diligence; and

3

(B) the facts underlying the claim would be sufficient to establish

by clear and convincing evidence that but for constitutional error, no

reasonable factfinder would have found the applicant guilty of the
underlying offense.”
STATEMENT OF THE CASE

I.

Evidence Presented at Trial
As recounted in the redacted report publicly filed by the magistrate

judge, Jane Doe 1 testified at trial that Petitioner forced her to have oral sex

with him three times when she was between the ages of 11 and 13. Pet. App.
42. She claimed that on a fourth occasion, she told him that she was “‘not
doing this anymore’” and he responded, “‘I’m sorry, I’m sorry . . . .’” Id. There

were no further incidents. Id. She testified that she did not tell anyone
about the alleged assaults until she was 17 years old, when she told a

boyfriend. The boyfriend then contacted the police. Pet. App. 43. Jane Doe 2
testified at trial that Petitioner sodomized her when she was 10 years old and
that she told her mother over a year later. Id.

There was no testimony at trial that anyone else had witnessed Figge
sexually abuse Jane Doe 1 or Jane Doe 2, nor that Jane Doe 1 had told

anyone about the abuse prior to when she told her boyfriend. Jane Doe l’s
mother Ellen, half-sister Katharine, and half-brother Andrew testified that

Jane Doe 1 didn’t regularly lie. Dr. Laura Brodie, a clinical and forensic

4

psychologist, testified for the prosecution about child sexual abuse
accommodation syndrome and the behaviors manifested by children who
have been abused.

As recounted in more detail below, the judge removed a defense holdout

juror during jury deliberations. After the juror was replaced, the jury found
Figge guilty of committing a lewd act, oral copulation, and aggravated sexual

assault of a child during three different occasions with respect to Jane Doe 1;
and guilty of a forcible lewd act, sodomy, and aggravated sexual assault of a

child in 2010 with respect to Jane Doe 2. Pet. App. 44. The judge sentenced

Figge to four terms of 15 years to life for each of the aggravated sexual

offense convictions, for a total of 60 years to life, and stayed the sentences on
the remaining convictions. Id.
II.

Jury Deliberations
The jury retired to deliberate at 1:40 p.m. on December 10, 2011, CT

250. That afternoon, the jury requested read-backs of “all the testimony on if
Brian Keith Figge apologized and said he was abused as a kid. Re: direct on

[Jane Doe 1] testified he wasn’t the type to apologize,” and on “Officer
Harwick’s testimony about Dillan’s [sic] report about [Jane Doe 1].” CT 252-

253.
The next morning the jury requested a read-back of more testimony.

CT 256. Later that day, the jury reported two separate times that it was
5

“unable to come to a final agreement,” but on both occasions the court
directed it to continue deliberating. CT 257-258.
The next morning, the jury asked for a read-back of “[Jane Doe #2]’s

testimony.” CT 261. Then, at 11:40 a.m., the deputy stated that some jurors
had a message for the court that “[Juror] No. 11 is refusing to deliberate.” RT

541. The court questioned the four complaining jurors (Jurors 2, 4, 7, and 8)
one by one in chambers, and then briefly questioned Juror 11. RT 550-571.
It became apparent through the questioning that Juror 11 was the
“lone holdout juror” for a not guilty verdict. Pet. App. 58 (“Some of the jurors’

statements . . . indicate[d] that they were frustrated with Juror No. 11 simply

because he was the lone ‘holdout’ juror.”); see also RT 567-572 (prosecutor
was fighting hard to have Juror 11 dismissed, while the defense attorney was
arguing strongly to keep him); RT 570 (Juror 11: “We first went into the room
and . . . one of the jurors said, okay, you know, my mind’s made up, he’s . . .

guilty as . . . hell. And I said no.”).
Juror 11 stated that he was deliberating and “keeping an open mind”

but that the other jurors “don’t like it that [his] opinions are different” to the
“extent that one of the jurors got up and swore at [him],” “another juror was

badgering [him],” and other jurors were ‘just asking [him the] same things
over and over . . . [and] making statements to [him] over and over . . . .” RT

570. He said that although another juror had declared at the beginning that

6

Figge was “guilty as hell,” he was the one who “started discussing and turned
it into a discussion” to “discuss [the counts] and started . . . with Count 1.” RT

569-570.

The court found the four complaining jurors to be credible, and found
Juror Il’s “demeanor . . . different than the demeanor of the other four . . .

and “[h]e just seemed to be trying to hide something.” RT 574. The judge

dismissed Juror 11 for failing to deliberate and sent the jury home for the

day. RT 574-575.

The following day, the jury resumed deliberations with a new juror in
place of Juror 11. CT 262. At 10:45 a.m., the jury requested a read-back of
“w hen [Jane Doe 1] said her mom was strangled and told not to leave him.

All portions when it was mentioned.” CT 264. At 3:15 p.m., the jury asked
for a readback of “[Jane Doe l]’s testimony.” CT 265.
Juror deliberations resumed the next day. CT 266. At 9:24 a.m., Jury

Request #3A was made, asking “Do we have to choose guilty and not guilty[.]

Can we do undisided [sic].” CT 268. At 11 a.m., the jurors declared a verdict,
finding Figge guilty on all 12 counts. CT 266-267.

III.

State Direct Appeal
Figge challenged the removal of Juror 11 on direct appeal. The

California Court of Appeal denied his claim in an unpublished opinion. Pet.
App. 49-55; Figge, 2015 WL 1573874, at *2-5. Figge reasserted his claim in a

7

petition for review in the California Supreme Court, which was denied on
July 22, 2015. Pet. App. 45.

IV.

Federal Habeas Action

Figge challenged the removal of Juror 11 in ground one of his federal

habeas petition. Pet. App. 46. The district court denied relief on the claim.
Pet. App. 39, 40, 100. Figge raised the claim in his appeal to the Ninth

Circuit. The Ninth Circuit affirmed the judgment against Figge in an
unpublished memorandum filed and entered on July 24, 2020. Pet. App. 33-

38.

REASONS FOR GRANTING THE WRIT

I.

Standard of Review and AEDPA Standards
The Court reviews the denial of Figge’s habeas corpus petition de novo.

Curiel v. Miller, 830 F.3d 864, 868 (9th Cir. 2016) (en banc). The Court

reviews de novo questions of law and mixed questions of law and fact.
Mayfield v. Woodford, 270 F.3d 915, 922 (9th Cir. 2001) (en banc). The

application of the Antiterrorism and Effective Death Penalty Act (“AEDPA”)

is a mixed question of law and fact. Mann v. Ryan, 828 F.3d 1143, 1151 (9th
Cir. 2016) (en banc). “To the extent it is necessary to review findings of fact
made in the district court, the clearly erroneous standard applies.” Silva v.

Woodford, 279 F.3d 825, 835 (9th Cir. 2002).

8

Figge filed his federal habeas petition after AEDPA’s effective date;

therefore, his petition is governed by AEDPA. Woodford v. Garceau, 538 U.S.
202, 205, 210 (2003). To obtain relief under AEDPA, a petitioner must show

that his constitutional rights were violated under 28 U.S.C. § 2254(a) and
that § 2254(d) does not bar relief on any claim adjudicated on the merits in
state court. Frantz v. Hazey, 533 F.3d 724, 735-737 (9th Cir. 2008) (en banc).

Under § 2254(d), a habeas petition challenging a state court judgment:

shall not be granted with respect to any claim that
was adjudicated on the merits in State court
proceedings unless the adjudication of the claim-(l)
resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted
in a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.

The relevant state court decision for purposes of federal review is the
last reasoned decision that resolves the claim at issue. Curiel, 830 F.3d at
869. Where, as here, the California Supreme Court summarily denies a

petition for review on direct appeal, the federal court ‘“lookfs] through’ thfat]

unexplained decision to the last reasoned state-court decision that does

provide a relevant rationale,” Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018),
i.e., the Court of Appeal opinion. See, e.g., Johnson v. Williams, 568 U.S. 289,
297 n.l (2013).

9

There is a rebuttable presumption that a state court adjudicated the
merits of a federal claim—triggering the application of § 2254(d)—when it

denies the claim in an opinion that addresses some issues but does not

expressly address the federal claim in question. Williams, 568 U.S. at 293.
When a federal claim has been adjudicated on the merits in a state

court opinion, § 2254(d) analysis is limited to evaluating the “state court’s
actual decisions and analysis.” Frantz, 533 F.3d at 737 (original emphasis);

Wilson, 138 S. Ct. at 1192.
“‘[C]learly established Federal law’ under § 2254(d)(1) is the governing

legal principle or principles set forth by the Supreme Court at the time the
state court renders its decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72
(2003). A governing legal principle or principles may result from decisions in

one or more Supreme Court opinions. See, e.g., Abdul-Kabir v. Quarterman,

550 U.S. 233, 246-256 (2007) (canvassing myriad Supreme Court opinions to
discern and apply the governing rule that capital sentencing juries must be

able to give meaningful consideration and effect to all mitigating evidence);

Brewer v. Quarterman, 550 U.S. 286, 288-89 (2007) (same).
A ‘“state court decision is “contrary to” clearly established Supreme

Court precedent if the state court applies a rule that contradicts the
governing law set forth in Supreme Court cases or if the state court confronts

a set of facts materially indistinguishable from those at issue in a decision of

10

the Supreme Court and, nevertheless, arrives at a result different from its

precedent.’” Cudjo v. Ayers, 698 F.3d 752, 761 (9th Cir. 2012) (original
emphasis).
A state court unreasonably applies federal law when it identifies the

correct governing legal principle but unreasonably applies it to the facts of

the case. Id. “AEDPA does not ‘require state and federal courts to wait for
some nearly identical factual pattern before a legal rule must be applied.’”
Panetti v. Quarterman, 551 U.S. 930, 953 (2007); Wiggins v. Smith, 539 U.S.

510, 520 (2003) (“[a] federal court may grant relief when a state court has
misapplied a ‘governing legal principle’ to ‘a set of facts different from those

of the case in which the principle was announced.’”).
A state court unreasonably determines the facts under § 2254(d)(2)

when its finding of fact is unsupported or contradicted by the record or when

the fact-finding process itself was defective. Brumfield v. Cain, 135 S. Ct.
2269, 2277-2282 (2015); Taylor v. Maddox, 366 F.3d 992, 999-1001 (9th Cir.

2004).

When a federal court concludes that the state court decision is contrary

to or an unreasonable application of federal law, or is based on an

unreasonable factual determination, it reviews the claim de novo in assessing
whether the petitioner’s constitutional rights were violated. Panetti, 551 U.S.

11

at 953-954; Frantz, 533 F.3d at 735; Maxwell v. Roe, 628 F.3d 486, 506 (9th
Cir. 2010).
II.

The State Court Decision Is Based on an Unreasonable
Determination of the Facts and Therefore 28 U.S.C. § 2254(d)
Does Not Bar Relief

A.

Applicable federal law

It is clearly established federal law that the Sixth and Fourteenth
Amendments guarantee state criminal defendants the right to a fair trial by

a panel of impartial jurors. Morgan v. Illinois, 504 U.S. 719, 726-27 (1992)

(collecting cases). An impartial juror is one who “can lay aside his impression
or opinion and render a verdict based on the evidence presented in court.”
Irvin v. Dowd, 366 U.S. 717, 723 (1961).

No good cause exists to remove a juror unless his “views would ‘prevent

or substantially impair the performance of his duties as a juror in accordance
with his instructions and his oath.’” Wainwright v. Witt, 469 U.S. 412, 424

(1985); Merced v. McGrath, 426 F.3d 1076, 1080-1081 (9th Cir. 2005) (Witt is

clearly established federal law for assessing the removal of jurors in non­
capital cases).
“[R]emoval of a holdout juror” “violate[s] the Sixth Amendment where

it was [not] based on ‘good cause’ and where there was . . . ‘evidence to

suggest that the trial court’s decision was motivated by the juror’s views on

the merits’ — i.e., because the juror was the lone holdout.” Frank v.
12

Lizarraga, 721 Fed. Appx. 719, 720 (9th Cir. May 2, 2018) (Mem.) (quoting

Perez v. Mitchell, 119 F.3d 1422, 1426 (9th Cir. 1997)). Figge meets all the

relevant tests for relief.
B.

The California appellate court ruling

When evaluating the trial court’s ruling in Figge’s case, the appellant

court applied the standard in People v. Cleveland, 25 Cal. 4th 466, 485 (2001),

Pet. App. 52, which held that a trial court has “good cause” to dismiss a juror
under Cal. Penal Code § 1089 if the juror is unable to or refuses to perform

her “duty to deliberate.” This Court has found that the court in Cleveland
simultaneously adjudicated the federal constitutionality of the trial court’s
decision to dismiss a holdout juror in its resolution of a juror dismissal claim
under § 1089. See Johnson, 568 U.S. at 304-305.4 Under Cleveland'.

A refusal to deliberate consists of a juror’s
unwillingness to engage in the deliberative process;

4 As discussed in the magistrate judge’s Report, “[m]any courts have
noted . . . that the discharge of a juror under Cal. Penal Code section 1089
implicates a criminal defendant’s Sixth Amendment right to a fair trial by a
panel of impartial, indifferent jurors, and that a claim alleging a violation of
section 1089 “overlaps with’ or is ‘intertwined with’ a Sixth Amendment
claim.” Pet. App. 56 (citing Bell v. Uribe, 748 F.3d 857, 864 (9th Cir. 2014));
see also Johnson, 568 U.S. at 304-305 (finding that a California court’s
resolution of a juror dismissal claim under § 1089 also incorporated the
Petitioner’s claim under the Sixth Amendment, because the opinion discussed
Cleveland')', Bell, 748 F.3d at 868 (“We have consistently held that ‘the
California substitution procedure’ outlined in § 1089 ‘preserve[s] the
‘essential feature’ of the jury required by the Sixth and Fourteenth
Amendments.”).
13

that is, he or she will not participate in discussions
with fellow jurors by listening to their views and by
expressing his or her own views. Examples of refusal
to deliberate include . . . expressing a fixed conclusion
at the beginning of deliberations and refusing to
consider other points of view, refusing to speak to
other jurors, and attempting to separate oneself
physically from the remainder of the jury ....

Id. The court in Cleveland also recognized, however, that:

[t]he circumstance that ... a juror . . . disagrees with
the majority of the jury as to what the evidence
shows, or how the law should be applied to the facts
. . . does not constitute a refusal to deliberate. A
juror who has participated in deliberations for a
reasonable period of time may not be discharged for
refusing to deliberate, simply because the juror
expresses the belief that further discussion will not
alter his or her views.
25 Cal. 4th at 485.

The appellate court deferred to the trial court’s finding that the four
complaining jurors credibly described Juror No. Il’s conduct and that Juror
No. Il’s description of what occurred was not credible, and determined that

“[b]ased on the showing that Juror No. 11 was unwilling to gate in the

deliberative process, the court did not err by discharging him.” Pet. App. 5355. Additionally it found that:
although Juror No. 11 was speaking and listening
during the discussions, he had made up his mind
from the outset of the deliberations and was not
willing to consider other points of view. ... As
described by these jurors, during the deliberations
Juror No. 11 . . . was not engaging in an evaluation of

14

other jurors’ opinions and he at times withdrew from
the deliberations because he did not want to consider
the points raised by other jurors. Their descriptions
reflect that he was not deliberating in a meaningful
manner because he had already decided the case in
his mind and he was not willing to give other jurors
an opportunity to change his views. The jurors
consistently stated that Juror No. 11 engaged in this
intransigent approach from the beginning of the
deliberations, which reflects this is not a situation
where a juror has deliberated with an open mind for
a reasonable period and is not simply communicating
that he or she has made a final decision ....
Although Juror No. 11 clearly had the right to adhere
to his position after good faith deliberations, the four
jurors that the court interviewed showed that Juror
No. 11 was adamantly maintaining his opinion
without giving other jurors’ opinions any
consideration.
Pet. App. 53-54. As shown below, the California appellate court’s decision
runs afoul of 28 U.S.C. § 2254(d)(2) and therefore AEDPA does not bar relief.

C.

The California appellate court ignored key
contradictory testimony in making its determination

The state appellate court failed to consider significant contradictory
evidence in making its determination that Juror No. 11 failed to deliberate.
“Failure to consider key aspects of the record is a defect in the fact-finding

process.” Taylor, 366 F.3d at 1007 (citing Miller-El v. Cockrell, 537 U.S. 322,

346 (2003)). In making findings, a judge must acknowledge significant

portions of the record, particularly where they are inconsistent with the
judge’s findings. Id. “The process of explaining and reconciling seemingly

15

inconsistent parts of the record lays bare the judicial thinking process,
enabling a reviewing court to judge the rationality of the fact-finder’s

reasoning. Id.

Here, while the state appellate court deferred to the trial court’s
assessment that the four complaining jurors (Jurors 2, 4, 7, and 8) were

credible while Juror 11 was not, the appellate court failed to resolve the fact

that the four “credible” complaining jurors made statements directly contrary
to the appellate court’s key findings and that they contradicted each other on
key points. Most importantly, the court ignored the critical

misunderstanding that the complaining jurors believed the holdout juror was

“failing to deliberate” when he was simply failing to change his mind to a
guilty verdict.

a)

Some of the statements made by the four
“credible” jurors contradicted the California
appellate court’s key findings, but the court failed
to explain why it ignored this important
inconsistent testimony

First, some of the statements made by two of the four “credible”
complaining jurors contradicted the appellate court’s key factual findings, yet

the appellate court did not explain how it “reconciled these seemingly
inconsistent parts of the record.” Taylor, 366 F.3d at 1001 (“[T]he state-court
fact-finding process is undermined where the state court has before it, yet

apparently ignores, evidence that supports petitioner’s claim.”).
16

Statements by Jurors 2 and 4 directly contradicted the appellate court

findings that “Juror No. 11 was not willing to engage in the deliberative

process,” “was not engaging in an evaluation of other jurors’ opinions,” and
that “this is not a situation where a juror has deliberated with an open mind

for a reasonable period and is now simply communicating that he or she has
made a final decision.” Pet. App. 54. Contrary to the appellate court’s

findings of fact, Juror 2 informed the trial court that Juror 11 was listening

to the readbacks, listening to other jurors when they were talking, and also
participating in the deliberations alongside the other jurors, but that he was
at a point where it was clear he was not going to change his mind so “they

were not getting anywhere with the deliberations” all signs that Juror 11 had
wholly participated in the jury deliberations:

[Prosecutor]: ... Do you feel that he is actually
failing to deliberate and participate in the process?
Juror No. 2: No. He’s giving it to us to deliberate. It’s
just we’re not getting anywhere with the
deliberations.

***
[Defense counsel]: And you said when there’s
readbacks and people are talking, he’s listening?

Juror No. 2: Yes.

[Defense counsel]: And he is participating?
Juror No. 2: Sometimes, yeah.
17

[Defense counsel]: Okay. He is just at a point where
it’s clear to you he’s just not gonna change his mind?

Juror No. 2: Exactly.

RT 566.
Similarly, Juror 4 indicated to the trial court that Juror 11, by
discussing his point of view and listening to other points of view, did in fact

engage in the deliberative process by giving other jurors’ opinions
consideration, but at a certain point he made a final decision and felt that

there was nothing further that the other jurors could do to change his mind.
RT 551-552. The following colloquy occurred:
The Court: Okay. For me be devil’s advocate. Maybe
he said, you know, we’ve discussed this, I’ve
discussed my point of view, I’ve heard your point of
view, I don’t think there is anything you can do to
convince me otherwise. I’ve got my mind made up. I
discussed it. No further discussion is going to help or
I just don’t want to hear anything from anybody.
Leave me alone. I’m not going to participate. So
which way is this?
Juror No. 4: The first one.

The Court: Uh-huh.
Juror No. 4: The first one that you mentioned, yeah.

RT 551. Here, Juror 4 agreed with the first part of the judge’s hypothetical
which would indicate that Juror 11 was engaging in the deliberative process
and simply had come to a different conclusion than the other jurors.

18

These exchanges between the trial court and Jurors 2 and 4 are directly
contrary to the central findings of the state appellate court. Taylor, 366 F.3d
at 1001 (“To fatally undermine the state fact-finding process, and render the

resulting finding unreasonable, the overlooked or ignored evidence must be

highly probative and central to petitioner’s claim.”). When making its

findings, however, the court did not explain why it ignored this conflicting
testimony of these two jurors on these key points and instead solely included

in its opinion snippets of testimony that supported its findings. Taylor, 366

F.3d at 1001 (holding that the state court makes an “unreasonable
determination of fact” when it “fail[ed] to consider and weigh relevant
evidence that was properly presented to the state courts and made part of the
state court record.”).

Moreover, as these determinations turn on Juror Il’s internal mental
state at the time of the deliberations, the appellate court did not clarify how
else, aside from participating in the deliberations, discussing the case,
discussing his point of view, and listening to the other jurors, could the four

complaining jurors have possibly determined whether Juror 11 was

evaluating “other jurors’ opinions” or “engaging in the deliberative process”
except by confusing his failure to change his mind with a failure to

deliberate. Id. at 1001.

19

For example, in Cleveland, the holdout juror was less cooperative with
the other jurors than in this case, but the California Supreme Court held that
the trial court’s findings of fact that he was not deliberating were erroneous
because even though the other jurors stated that the holdout juror “was not
deliberating,” he refused to participate at times, and he “refuse[d] to respond”

when asked “specific questions as to elements and facts”, the juror
“attempted to explain, however inarticulately, the basis for his conclusion

that the evidence was insufficient to prove an attempted robbery, and he
listened, even if less than sympathetically, to the contrary views of his fellow

jurors.” Cleveland, 25 Cal.4th at 486; see also People v. Bradford, 15 Cal. 4th
1229, 1350-1352 (1997) (affirming that no misconduct occurred when a few
“hostile jurors” had expressed a fixed view of the case before all the evidence
had been reviewed and caused other jurors to feel they could not continue

deliberations). Here, as in Cleveland, the holdout juror also explained his
point of view and listened to the other jurors.
State courts that have dismissed a holdout juror during deliberations

without violating the Sixth Amendment have generally done so when the

20

juror himself informs the court he is not able to deliberate,5 was inebriated,6

consulted outside sources and acted as a mental health expert,7 falsely

responded to bias questions on voir dire,8 was biased because he would not

follow the law since he disagreed with it,9 or did not discuss his point of view

or listen to other jurors and refused to look at the victims in the courtroom.10
Noting like that is present here.
b)

The four complaining jurors contradicted each
other and themselves in describing Juror Il’s
behavior in the jury room, but the California
appellate court did not explain why it
disregarded these significant inconsistencies

The four complaining jurors contradicted each other in explaining the
behavior of Juror 11, but the California appellate court did not explain why it
ignored these key inconsistencies. Taylor, 366 F.3d at 1001.
As described above, with regard to Juror Il’s behavior in the jury room,

Jurors 2 and 4 testified that Juror 11 had been participating in the

5 Perez, 119 F.3d at 1427; United States v. Brown, 823 F.2d 591 (D.C.
Cir. 1987).
6 Miller v. Stagner, 757 F.2d 988, 995 (9th Cir. 1985), amended, 768
F.2d 1090.

7 Bell, 748 F.3d at 868-869.

8 Lizarraga, 721 Fed. Appx. 719.
9 Williams v. Johnson, 840 F.3d 1006, 1008-1010 (9th Cir. 2016).
10 People v. Thomas, 26 Cal. App. 4th 1328, 1333 (1994).

21

discussions, was listening to the read-backs, had listened to other juror’s
opinions, and had shared his opinions. RT 551, 566.

However, Juror 8 contradicted Jurors 2 and 4 by telling the court that
Juror 11 was failing to deliberate because from the beginning he was not

giving feedback, staring at the other jurors, and was not saying anything.
[Prosecutor]: I just have one question. Do you feel
that he is failing to deliberate?
Juror No. 8: Absolutely.

The Court: Counsel?

[Defense counsel]: And when did you start feeling
that?

***
Juror No. 8: From the first time we sat down ....
Just from the very beginning. And I -- you know, I’ve
- I’m pretty easygoing and, you know, after teaching
for 35 years I’ve dealt with some really crazy
characters. I mean, I’m not saying this guy’s crazy.
Strike that. But there’s - like, there’s nothing -­
there’s no feedback. You know? It’s like you’re
staring at me and I’m gonna keep talking and you’re
not gonna say anything.

RT 559. Juror 8’s description of Juror No. Il’s behavior was completely
different from that of Jurors 2 and 4, as Juror 8 described him as someone

very quiet, unresponsive, and potentially mentally ill.
However, by contrast (and as described above), Juror 4 agreed that “[i]n

the very beginning,” Juror 11 “listen[ed], participate[d], argue[d], expressed]
22

a point of view.” RT 552. Furthermore, the fourth complaining juror, Juror 7,
contradicted all three of the other complaining jurors. Juror 7 did not

describe Juror 11 as someone who would not talk and was unresponsive;
instead, Juror 7 described Juror 11 as someone who had been talking about

the case with the group but was getting very frustrated, defensive, and
annoyed by the others when they interrupted and “badgered” him, and thus

he was threatening not to continue to interact with them. RT 562.
Juror 8 also contradicted herself: she told the court that “from our

discussions I feel that [Juror No. 11] has -- he made up his mind before we

ever entered the jury room,” RT 556, but when she described Juror Il’s
statements she made it sound as if he were confused as to his opinion on the
evidence by stating that “he just said ‘I just don’t see any of it. I don’t see -- I

can’t put this together. It just does not make sense to me.”’ Id. If Juror 11
was making statements like “I can’t put this together” and “it just does not

make sense to me,” during the jurors’ discussions, it does not appear that he
had made up his mind before entering the jury room. However, the appellate

court did not explain why it believed one statement made by Juror 8 over
another.
While the four jurors described very different and contradictory

behaviors by Juror 11, the appellate court did not explain how it was possible

to find that all four complaining jurors’ testimony was credible while Juror 11
23

was not credible, nor did it explain why it believed some of their descriptions

of Juror 11 but not others.
c)

The appellate court failed to address obvious
confusion by the “credible” jurors; the
complaining jurors believed Juror 11 was “failing
to deliberate” because he had refused to change
his mind to the majority view

From the transcript it is apparent that the complaining jurors believed
Juror No. 11 was “failing to deliberate” because he refused to change his

mind to the majority view and convict Figge, yet the California appellate
court patently ignored this obvious-yet-damning misunderstanding. See
Milke v. Ryan, 711 F.3d 998, 1008 (9th Cir. 2013 (“[W]here the state courts
plainly misapprehend or misstate the record in making their findings, and

the misapprehension goes to a material factual issue that is central to
petitioner’s claim, that misapprehension can fatally undermine the fact­

finding process, rending the resulting factual finding unreasonable.”); Taylor,
366 F.3d at 1001.
Compounding this key misunderstanding, the trial court never made it

clear to the jurors what a “failure to deliberate” was; instead, the judge

repeatedly used terms like failing to “cooperate” or “not [being] on the same
wavelength,” which would indicate solely that the juror was not joining the
group consensus of a guilty verdict. RT 561-564.

24

Indeed, as described by the federal magistrate judge in her report, it is

obvious from the jurors’ testimony that the Juror 11 was the “lone ‘holdout’”

who disagreed with the majority view and the other jurors were getting
frustrated because he would not change his mind. Pet. App. 58 (“Some of the
jurors’ statements did indicate that they were frustrated with Juror No. 11
simply because he was the lone ‘holdout’ juror.”).

For example, Juror 2 explained that she believed Juror 11 “was not
cooperating” and “had a closed mind” from “the first hour” of deliberations

because “he had his own opinion.” RT 563-565.
However, ‘it is not uncommon for a juror ... to come to a conclusion

about the strength of a prosecution’s case early in the deliberative process

and then refuse to change his or her mind despite the persuasive powers of

the remaining jurors.” People v. Bowers, 87 Cal. App. 4th 722, 734 (2001);
People v. Engelman, 28 Cal. 4th 436, 446 (2002) (holding that a court “may
not discharge a juror for failing to agree with the majority of other jurors or

for persisting in expressing doubts about the sufficiency of the evidence in
support of the majority view.”).

Juror 2 further testified that Juror 11 was “not willing” to deliberate
because even though they were “all talking,” he was “not changing his mind
in any way,” and that even though they’d had “three or four readbacks,” he

was not willing to deliberate since “nothing’s changing.” RT 565.
25

Similar to Juror 2, Juror 4 explained that she believed Juror 11 wasn’t
deliberating because he had a strong opinion and hadn’t changed his mind to

the majority view during the three days of deliberations. RT 552 (“He hasn’t,
you know, changed his mind.”).

Juror 8 also made statements showing that she, too, believed Juror 11
was failing to deliberate because they were “making no progress” in changing
his mind even though another juror “has explained everything in all different

. . . angles.” RT 557. Juror 8 agreed with the court that Juror 11 was

“unwilling to discuss the case with the others toward reaching some kind of
resolution,” again seeming to indicate in that context that Juror 11 was not

willing to change his mind to resolve the case. RT 558.

Juror 7 also made it clear that Juror 11 was participating, but felt
Juror 11 had an “attitude” and was “not willing to cooperate,” because he told

the other jurors that they were “all badgering him” when he was talking,
thus referencing the mutual frustration that was occurring when he was not
changing his mind to their view. RT 562.
Juror 11 explained that he believed he was fulfilling his “role in

deliberating, discussing, keeping an open mind,” but that the other jurors
“don’t like that my opinions are different,” and were getting frustrated that

he wouldn’t change his mind. RT 570.

26

In Cleveland, although the eleven other jurors complained that the
holdout juror “failed to deliberate” and “was unwilling to apply the law,” the

California Supreme Court acknowledged that, like here, “it became apparent

under questioning that the juror simply viewed the evidence differently from

the way the rest of the jury viewed it.” Cleveland, 25 Cal. 4th at 486. The
court in Cleveland thus found that the trial court abused its discretion in

excusing the holdout juror. Id.

Because here the appellate court ignored, misapprehended, or
misstated the record with regard to this “material factual issue that is central

to [Figge’s] claim,” its fact-finding process was “fatally undermined” in

determining that the holdout juror was failing to deliberate. See Milke, 711
F.3d at 1008. There was no good cause to remove Juror 11, as it is clear from

the record that Juror 11 was deliberating and his views would not “prevent or
substantially impair the performance of his duties as a juror.” Witt, 469 U.S.
at 424; see also Perez, 119 F.3d at 1426; Lizarraga, 721 Fed. Appx. at 719-

720. Accordingly, the appellate court’s findings were unreasonable. See id.
d)

The process employed by the state court was
defective because the court only briefly spoke
with the holdout juror, no inquiry was made of
the non-complaining jurors, and no effort was
made to preserve the originally empaneled jury

The process employed in this case was also defective because the trial

court spoke only briefly with Juror 11, spoke at length with the four
27

complaining jurors, and failed completely to question the jury foreperson or

the six other non-complaining jurors. See Milke, 71 F.3d at 1007 (holding

that a “state court’s finding” on a claim “amounted to an unreasonable
determination of the facts under section 2254(d)(2)” when the state judge
made “her finding based on an unconstitutionally incomplete record”); see
also People v. Barber, 102 Cal. App. 4th 145 (2002) (finding that “the court’s

inquiry was inadequate” because “its findings were derived from a stacked

evidentiary deck” when the trial court only interviewed the six complaining
jurors but failed to interview the other jurors); Cleveland, 25 Cal.4th at 486

(questioning all twelve jurors before making a determination with regard to
whether the holdout juror was failing to deliberate). The process was further

defective because the court failed to take any action to “preserve the original

empaneled jury.” Bell, 748 F.3d at 868; Perez, 119 F.3d at 1426-1427.
Here, unlike in Perez and Bell where the state trial courts “took great
pains to preserve the original empaneled jury” and spoke at length with the

holdout juror to encourage the juror to properly participate in the
deliberations, the trial judge here solely held one brief hearing where he

spoke little with Juror 11 and gave him no chance to improve his behavior
before dismissing him. Bell, 748 F.3d at 868 (finding no violation under

§ 2254(d) because “[t]he record reflects that the state trial judge took great
pains to preserve the originally empaneled jury and declined to remove Juror

28

No. 7 on four separate occasions in response to juror notes and complaints to

the court.”); Perez, 119 F.3d at 1426-1427 (finding key to its holding of no
Constitutional violation that the trial court “conducted a lengthy interview
with Juror Robles . . . where the juror repeatedly indicated that she was not

willing and able to continue as a juror,” the trial judge “persuaded her to
return to the jury room” shortly after “the foreperson was forced to
discontinue deliberations because of Robles’s emotional state,” and the court
again spoke with the juror before excusing her). Here, unlike in Bell and

Perez, no discussion whatsoever was had with Juror 11 to encourage him to
deliberate, nor were additional chances given to him correct his behavior
before excusing him.

Because the state court made its determination that the holdout juror

had “failed to deliberate” based on a critically incomplete record and without

taking “great pains to preserve the original empaneled jury,” the fact-finding
process itself was defective, which amounted to an unreasonable
determination of facts under section 2254(d)(2). Milke, 71 F.3d at 1007;
Taylor, 366 F.3d at 999-1001; Bell, 748 F.3d 868; Perez, 119 F.3d at 1426-

1427.

29

III.

On De Novo Review, the Court Should Grant Relief

A.

Figge’s Sixth Amendment rights were violated

For the same reasons that 28 U.S.C. § 2254(d)(2) is satisfied, the Court
should grant relief on de novo review. Frantz, 533 F.3d at 736 (“a holding on
habeas review that a state court error meets the § 2254(d) standard will often
simultaneously constitute a holding that the § 2254(a)/§ 2241 requirement is

satisfied as well, so no second inquiry will be necessary”). As described

above, Juror Il’s views would not “prevent or substantially impair the

performance of his duties as a juror in accordance with his instructions and
his oath,” Witt, 469 U.S. at 424, his removal was not based on good cause,

and there was “evidence to suggest” (via the many comments of the

complaining jurors explained above), that the “decision to remove him was

motivated” by his “views on the merits” of the case, since he “was the lone

holdout.” See Lizarraga, 721 Fed. Appx. at 719-720 (quoting Perez, 119 F.3d
at 1426).
B.

The Sixth Amendment violation prejudiced Figge

The removal of the lone defense holdout juror requires relief on its own

without a showing of prejudice. See, e.g., Sanders v. LaMarque, 357 F.3d 943

(9th Cir. 2004). But even this claim is subject to harmless error review, the

removal of jury 11 clearly prejudiced Figge, since Juror 11 was the only juror
who was in favor of a not guilty verdict. Pet. App. 58. Indeed, the prejudice

30

of removing Juror 11 was demonstrated when, after he was removed, the jury

turned in guilty verdicts on all twelve counts just one day after beginning
their deliberations with the new juror. CT 262-267. Accordingly, this Court
should grant relief.

CONCLUSION

For the foregoing reasons, the Court should grant Figge’s petition,
reverse the judgment of the Ninth Circuit, and grant relief.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

(9z a '

DATED: December 14, 2020

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record

31

